P.O. Box 1365 • Waynesboro, VA 22980
(540) 946-3200 • (800) 245-8085
FAX: (540) 946-3212 • mydccu.com

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
4/1/2021
accurate as of _______________.
You can contact us toll free at (800) 245-8085 or at the address above if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Mastercard World Rewards
Annual Percentage Rate (APR) for
Purchases

11.99-18.99%

APR for Cash Advances

15.99-22.99%
depending on your credit history. This APR will vary with the market based on the
Prime Rate.
15.99-22.99%
depending on your credit history. This APR will vary with the market based on the
Prime Rate.

APR for Balance Transfers

depending on your credit history. This APR will vary with the market based on
the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire new purchase
balance by the due date each month. We will begin charging interest on cash
advances and balance transfers on the date the cash advance or balance
transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
https://consumerfinance.gov/data-research/credit-card-data
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your Account
• Annual Fee:
• Application Fee:

None
None

Transaction Fees
• Balance Transfer:
• Cash Advance:
• Foreign Transaction:

3 % of the amount of each transfer (minimum: $3
3 % of the amount of each cash advance
1 % of each transaction in U.S. dollars

Penalty Fees
• Late Payment:
• Over-the-Credit Limit:
• Returned Payment:

Up to $25
Up to $25
Up to $25

, maximum: $ 150

)

if your payment is late 10 days or more.
if you exceed your credit limit.
if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Payments greater than $2,500 will be subject to a 3 business day hold.
Cash Advances may be completed up to 25% of the credit limit.

9009 LASER FPDF FI1001246 1-2020

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

